U.S. Department of Agriculture
 Office of Inspector General
     Great Plains Region
         Audit Report



       Farm Service Agency
     Risk Management Agency
      Crop Disaster Program
         Washington, D.C.




               Report No.
               03099-42-KC
               JULY 2001
                 UNITED STATES DEPARTMENT OF AGRICULTURE
                       OFFICE OF INSPECTOR GENERAL
                            Washington D.C. 20250


DATE:         July 30, 2001

REPLY TO
ATTN OF:      03099-42-KC

SUBJECT:      Crop Disaster Program

TO:           James R. Little
              Acting Administrator
              Farm Service Agency

              Phyllis Honor
              Acting Administrator
              Risk Management Agency

ATTN:         T. Mike McCann
              Director
              Operations Review and Analysis Staff
              Farm Service Agency

              Garland Westmoreland
              Deputy Administrator
               for Risk Compliance
              Risk Management Agency


This report presents the results of the subject audit. The Farm Service Agency’s
response to our draft report is included in its entirety as exhibit C, with excerpts and our
position incorporated into relevant sections of the report. A formal response was not
received from the Risk Management Agency. We have not accepted management
decision on any of the recommendations. The Findings and Recommendations section
of the report describes the information and/or documents needed to reach management
decision on each recommendation.

In accordance with Department Regulation 1720-1, please furnish a reply within 60 days
describing the corrective action taken or planned and the timeframes for implementation
of each audit recommendation. Please note that the regulation requires a management
decision to be reached on all findings and recommendations within a maximum of
6 months from report issuance.
James R. Little et al.                                                              2



We appreciate the courtesies and cooperation extended to us by members of your staff.


        /s/

RICHARD D. LONG
Assistant Inspector General
 for Audit
                       EXECUTIVE SUMMARY
                           Farm Service Agency
                         Risk Management Agency
                          Crop Disaster Program

                           Audit No. 03099-42-KC


                                     The 1999 Crop Disaster Program (CDP) was
     RESULTS IN BRIEF                authorized   to assist farmers who suffered
                                     quantity or quality losses to their 1999 crops
                                     due to natural disasters and was to be
         delivered in the same manner as the 1998 Crop Loss Disaster Assistance
         Program (CLDAP). The objectives of the audit were to identify and review
         any new provisions developed and implemented for the 1999 CDP and to
         evaluate the effectiveness of corrective actions taken by the Farm Service
         Agency (FSA) and the Risk Management Agency (RMA) on program
         weaknesses identified by our prior audit of CLDAP (Audit Report No.
         50801-3-KC). We placed primary emphasis on whether (1) disaster
         program payments were properly adjusted when based on excessive crop
         insurance indemnities, and (2) interagency procedures were implemented
         to share corrected program records. Even though FSA and RMA had
         concurred prior to implementation of the 1999 CDP that program
         improvements were needed, we determined that the 1999 CDP was
         delivered in the same manner as the 1998 CLDAP, with no significant new
         provisions developed or implemented to administer the program.

           We found that FSA and RMA program managers did not promptly
           implement corrective action to identify and report excessive indemnities so
           that disaster payments could be reduced accordingly. As a result, FSA
           continued to disburse millions of dollars for disaster payments to producers
           who received excessive crop insurance indemnities in 1999. For example,
           about $40 million in questionable crop insurance indemnities were paid on
           1999 watermelon losses due to flaws RMA identified in the watermelon crop
           insurance contract. However, FSA was not advised of the potential
           excessive indemnities and, therefore, processed CDP applications for about
           $12.5 million from the same producers without considering this information in
           the payment determinations.        A similar situation was identified for
           nonirrigated corn when RMA established an excessively high yield in 1998.
           In 1999, the improperly established yield caused producers to plant and
           insure nonirrigated corn in an area where it was normally too dry. As a
           result, RMA paid about $12.7 million in questionable indemnities because


USDA/OIG-A/03099-42-KC                                                           Page i
           the nonirrigated corn yield was too high. However, FSA was not informed of
           these questionable indemnities and, therefore, processed CDP applications
           for about $6.6 million in CDP benefits to the same producers without
           considering the erroneous data.

           Although FSA and RMA shared program records, the CDP was
           administered without implementation of appropriate interagency
           procedures to notify the other agency when changes were made or
           problems were found that could affect payment determinations. To
           illustrate, RMA compliance identified and recommended collection of
           improper 1999 and 1998 indemnities that were the basis for 1999 CDP
           and 1998 CLDAP payments of about $1 million (see exhibit A, Summary
           of Monetary Results). However, a process was not in place for RMA to
           provide the corrected indemnity amounts to FSA so that disaster program
           payments could be corrected.

           In addition, FSA county offices (CO) did not always apply liquidated
           damages for noncompliance with crop insurance linkage requirements in a
           fair and consistent manner, as some COs inappropriately allowed
           exceptions to and waivers of these provisions. As a result, all producers
           were not treated in the same manner and were not properly assessed
           liquidated damages for noncompliance with crop insurance linkage
           requirements.   In August 2000, FSA recognized the inappropriate
           exceptions and waivers granted by COs and directed corrective action.

           During the audit, we issued a Management Alert (03099-42-KC(2)) on
           April 18, 2000, to advise FSA that, as reported in our review of the
           1998 CLDAP, procedures were still not in place to adjust CDP payments
           when indemnities were based on improper crop yields and production
           guarantees. In response, FSA agreed to grant authority to county
           committees to change downloaded RMA data any time RMA provided
           written notification to FSA that excessive indemnities had been paid as a
           result of erroneous insurance data. We concurred with the action taken by
           FSA.

                                    FSA and RMA should immediately implement
 KEY RECOMMENDATIONS                formal interagency procedures to (1) identify
                                    and report instances where excessive crop
                                    insurance indemnities were paid due to
        program irregularities, and (2) exchange program data when program
        reviews performed internally or externally identify payment errors. FSA
        should recover all CLDAP and CDP payments based on improper
        indemnities. In addition, FSA should also instruct State FSA offices to follow
        up on CO application of the liquidated damage provisions to ensure these



USDA/OIG-A/03099-42-KC                                                         Page ii
          provisions are properly applied and liquidated damages or program
          payments are recovered, as appropriate.

                                   FSA generally agreed with the audit findings
    AGENCY RESPONSE                and recommendations. RMA did not provide a
                                   formal response to our draft report.



                                  Additional information is needed to reach a
        OIG POSITION              management decision on each of our
                                  recommendations.       Specific details are
                                  incorporated    into   the    Findings  and
          Recommendations section of the report.




USDA/OIG-A/03099-42-KC                                                  Page iii
                                      TABLE OF CONTENTS

  EXECUTIVE SUMMARY...........................................................................................................i
 RESULTS IN BRIEF..................................................................................................... i
 KEY RECOMMENDATIONS ....................................................................................... ii
 AGENCY RESPONSE ............................................................................................... iii
 OIG POSITION ........................................................................................................... iii
  TABLE OF CONTENTS..........................................................................................................iv
  INTRODUCTION ......................................................................................................................1
 BACKGROUND .......................................................................................................... 1
 OBJECTIVES .............................................................................................................. 2
 SCOPE ........................................................................................................................ 2
 METHODOLOGY ........................................................................................................ 3
  FINDINGS AND RECOMMENDATIONS .................................................................................4
 CHAPTER 1 ................................................................................................................ 4
 PROGRAM WEAKNESSES WERE NOT CORRECTED............................................ 4
 FINDING NO. 1............................................................................................................ 4
 RECOMMENDATION NO. 1 ....................................................................................... 7
 RECOMMENDATION NO. 2 ....................................................................................... 7
 RECOMMENDATION NO. 3 ....................................................................................... 8
 FINDING NO. 2............................................................................................................ 9
 RECOMMENDATION NO. 4 ..................................................................................... 10
 RECOMMENDATION NO. 5 ..................................................................................... 11
 FINDING NO. 3.......................................................................................................... 12
 RECOMMENDATION NO. 6 ..................................................................................... 14
 EXHIBIT A – SUMMARY OF MONETARY RESULTS ............................................. 15
 EXHIBIT B – COUNTY OFFICES CONTACTED FOR LIQUIDATED DAMAGES
 REVIEW .................................................................................................................... 16
 EXHIBIT C – FSA’S RESPONSE TO THE DRAFT REPORT .................................. 17
  ABBREVIATIONS..................................................................................................................25


USDA/OIG-A/03099-42-KC                                                                                                    Page iv
                            INTRODUCTION

                                       The Agriculture, Rural Development, Food and
       BACKGROUND                      Drug Administration, and Related Agencies
                                       Appropriations Act 2000 (the Act) (PL 106-78),
                                       dated October 22, 1999, authorized the
         Secretary to establish the Crop Disaster Program (CDP). The objective of
         the CDP was to assist farmers who suffered losses to 1999 crops due to
         natural disasters. The Act and the Omnibus Consolidated Appropriations
         Act 2000, Emergency Supplemental Appropriations, dated November 29,
         1999, provided about $1.4 billion to compensate producers for their losses.
         In addition, the Act provides that producers who did not purchase crop
         insurance for the 1999 crop for which CDP benefits were requested had to
         insure that crop for the 2000 and 2001 crop years.

          Producers were eligible for CDP participation if they had suffered losses
          exceeding 35 percent of historic yields.              Eligible producers were
          compensated at 65 percent of crop insurance market price elections for
          insured crop losses, 60 percent of the crop insurance market price elections
          for uninsured crop losses, or 65 percent of the 5-year average of the
          National Agricultural Statistics Service’s prices for noninsurable crop losses.

          The FSA developed program regulations and procedures and delivered
          the program through its network of field offices. The RMA was responsible
          for providing crop insurance records to FSA county offices before sign-up
          started on December 13, 1999, to determine the payments for the insured
          producers. After the sign-up period ended on February 25, 2000, FSA
          county offices reviewed and approved the applications and prepared the
          data for upload and analysis by the FSA office in Kansas City. The data
          was used to develop a National payment factor (69.6 percent) to apply to
          all payments so that the CDP expenditures did not exceed the amount
          authorized by law.

          In September 2000, we issued Audit Report No. 50801-3-KC on FSA’s
          and RMA’s implementation of the 1998 Crop Loss Disaster Assistance
          Program (CLDAP). We reported that FSA and RMA needed to continue
          efforts to improve in the administration of the program to ensure effective
          program delivery. Specifically, producer program payments were not
          limited to the producer’s expected gross returns for the disaster crop,
          disaster payments were based on improper crop loss determinations and
          inflated crop insurance indemnities, and producers did not always



USDA/OIG-A/03099-42-KC                                                           Page 1
                     accurately report gross revenues, eligible acreages, crop production, crop
                     shares, or other program requirements. In response to the audit, FSA and
                     RMA agreed that, for any future comparable programs, they would ensure
                     that regulations provide for appropriate adjustments to RMA data on which
                     disaster payments are based.

                                            Our audit objectives were to evaluate the
                 OBJECTIVES                 effectiveness of FSA and RMA corrective
                                            actions taken on deficiencies identified during
                                            our review of the 1998 CLDAP and to review
                  any new provisions implemented for the 1999 CDP.

                                                   The audit was performed through interviews
                       SCOPE                       and reviews of program documents and records
                                                   at FSA’s and RMA’s National offices, RMA’s
                                                   compliance office in Kansas City, Missouri;
                     FSA’s Kansas City Finance Office, Debt Management Division; and
                     judgmentally selected FSA State and county offices. As of March 27, 2000,
                     FSA accepted CDP applications totaling $1.3 billion. The total included
                     $892 million for insured crops, $247 million for crops that were noninsurable
                     (that included $15 million for alfalfa, $29 million for mixed forage, and
                     $45 million for grass), $90 million for uninsured crops, $57 million for value
                     loss crops1, and $4 million for trees.

                     We performed field office reviews from May through June 2000, at the
                     Nebraska State FSA office2 and the Cheyenne and Kimball County FSA
                     offices (CO). At the two COs, we judgmentally selected and reviewed
                     22 producers’ CDP applications out of 1,247 CDP applications on file. The
                     selections were based on whether the applicant (1) had the potential to
                     exceed the gross revenue limitation, (2) had questionable 1999 indemnity
                     amounts, and (3) applied for CDP benefits on a crop that was noninsurable
                     (i.e., grass, forage, hay, and alfalfa). In Nebraska, 7,390 producers applied
                     for CDP benefits totaling about $20 million. Noninsurable crop CDP
                     applications in Nebraska totaled $234,000 for alfalfa, $39,000 for grass, and
                     $29,000 for mixed forage. In addition, we contacted 15 FSA COs in nine
                     States (see exhibit B) to determine if liquidated damages for noncompliance
                     with the crop insurance linkage requirements for the 1998 CLDAP were
                     properly applied.

                     To assess the application of liquidated damages for noncompliance with the
                     crop insurance linkage requirements, we reviewed FSA records of the

1
    Crops unique in nature that do not lend themselves to yield calculations or production loss situations. These crops include, but
are not limited to nursery, Christmas trees, and aquaculture.
2
  The Nebraska State and county FSA offices were selected to review noninsurable CDP applications.




USDA/OIG-A/03099-42-KC                                                                                                   Page 2
                   1998 CLDAP. This was necessary because liquidated damages for
                   noncompliance with crop insurance linkage requirements for the 1999 CDP
                   had not been determined at the time of our review.

                   We conducted the audit in accordance with Government Auditing Standards.

                                             We interviewed RMA and FSA officials in
            METHODOLOGY                      Washington, D.C., and Kansas City, Missouri,
                                             to identify the planned action for weaknesses
                                             identified during our review of the 1998 CLDAP
              and to identify applicable laws, regulations, program procedures, and
              policies for implementing the CDP. We then compared CDP and CLDAP
              program procedures and interviewed FSA personnel to identify any changes
              in the administration of the two disaster programs.

                   We reviewed the FSA CDP data upload from COs to identify the crops and
                   States that were scheduled to receive CDP payments based on insured
                   crops, noninsured crops, uninsured crops, value added crops, and trees.
                   We also reviewed FSA’s summary of compliance with crop insurance
                   linkage report to identify states with a high number of producers that were
                   determined to comply with the linkage requirements based on “other”
                   unspecified reasons. We reviewed FSA’s data upload on producers’
                   insurance to determine if the producers had purchased crop insurance or
                   provided evidence that crop insurance was not needed to meet the crop
                   insurance linkage requirement3. RMA’s compliance report on improper
                   claims was also used to identify 1998 CLDAP payments that needed to be
                   corrected.

                   In Nebraska, we interviewed State office (SO) personnel to identify policies
                   and procedures issued by the SO, the extent of SO guidance and monitoring
                   of CO CDP sign-up activity, and any problem areas with the administration
                   of the CDP. At the FSA COs in Nebraska, we interviewed personnel and
                   reviewed CDP records to determine whether producers and crops met
                   eligibility requirements. In Nebraska, we also interviewed producers in our
                   sample, as needed, to obtain additional information regarding their reported
                   crop losses. We also interviewed FSA CO personnel in 15 counties to
                   determine if liquidated damages were properly applied.




3
   FSA Disaster Assistance Program (DAP) Handbook 1-DAP Amend. 9 dated February 9, 1999; par. 1001A provided that as a
condition of receiving benefits under CLDAP, producers who did not insure 1998 crops were required to purchase crop insurance on
all insurable crops of economic significance in 1999 and 2000.




USDA/OIG-A/03099-42-KC                                                                                               Page 3
             FINDINGS AND RECOMMENDATIONS



CHAPTER 1           PROGRAM WEAKNESSES WERE NOT CORRECTED


             Previously, during our audit of the 1998 CLDAP (Audit Report
             No. 50801-3-KC), we reported that certain CLDAP payments were based on
             excessive crop insurance indemnities and that controls over liquidated
             damages needed to be improved.             FSA and RMA officials also
             acknowledged that procedures were not in place to convey corrected FSA
             farm program and RMA crop insurance records between the agencies. FSA
             and RMA officials agreed that, if new disaster programs were implemented,
             FSA and RMA would take corrective action to preclude recurrence of
             disaster payments based on excessive indemnities. However, during our
             review of the 1999 CDP, we found that FSA and RMA program managers
             still needed to develop controls to ensure that disaster payments were not
             based on excessive or improper indemnities and to ensure that liquidated
             damages were properly applied for noncompliance with crop insurance
             linkage requirements.

                                       CDP payments based on excessive crop
       FINDING NO. 1                   insurance indemnities were not identified and
                                       corrected. This occurred because program
CROP INSURANCE POLICY FLAWS managers did not timely implement agreed-to
 CAUSED EXCESSIVE DISASTER             corrective action that would identify and report
         PAYMENTS                      overstated indemnities so that disaster
                                       payments could be adjusted accordingly. As a
          result, FSA approved CDP applications totaling $12.5 million for insured
          watermelon losses and $6.6 million for nonirrigated corn insured losses in
          Oklahoma, even though we alerted FSA of the inflated watermelon and
          nonirrigated corn crop insurance indemnities.

             During our audit of the 1998 CLDAP, we reported in Management Alert
             50801-3-KC(1), dated February 22, 1999, that disaster program payments
             were based on excessive indemnities paid on certain crops. In May 1999,
             FSA and RMA officials agreed that, if another crop disaster assistance
             program was authorized in the future, they will ensure that regulations are
             enacted that authorize adjustments of disaster payments if inflated or
             erroneous crop insurance indemnities are to be used as a basis for crop




USDA/OIG-A/03099-42-KC                                                          Page 4
                      payments.4 However, our audit of the 1999 CDP disclosed that the same
                      condition still existed, and in our April 18, 2000, Management Alert
                      (03099-42-KC(2)), we reiterated our concern that some 1999 CDP
                      payments continued to be based on excessive crop insurance indemnities.
                      Excessive crop insurance indemnities were identified on watermelon crop
                      insurance policies in Texas, Alabama, Florida, and Georgia, and on
                      nonirrigated corn crop insurance policies in Tillman County, Oklahoma,
                      without regulations in place to reduce the disaster assistance payments:

                           •    Watermelon - RMA implemented a pilot watermelon crop insurance
                                program for the 1999 watermelon crop in 15 counties in 7 States. In
                                two States, the number of watermelon acres increased significantly.5
                                The watermelon industry attributed the acreage increases to the entry
                                of nontraditional producers who planted large acreages of
                                watermelons merely to capitalize on the watermelon crop insurance
                                policy that had excessive production guarantees, payment rates,
                                T-yields, etc. By September 1999, RMA recognized problems with
                                the watermelon crop insurance policy and suspended it for the 2000
                                crop year. Even though RMA knew of the problems with the
                                watermelon crop insurance contract prior to CDP sign-up in
                                December 1999, RMA did not inform FSA that excessive indemnities
                                were paid. In total, RMA paid 232 producers about $40 million in
                                indemnities for their 1999 watermelon losses.6 FSA accepted CDP
                                applications from 201 of the 232 producers totaling about $12.5
                                million. We reviewed two producers’ watermelon indemnities totaling
                                over $4.7 million and found that the two producers received advance
                                CDP payments totaling $56,000.7

                           •    Nonirrigated Corn - Erroneous yields were established by RMA for
                                nonirrigated corn in Tillman County, Oklahoma.             For the
                                1998 reinsurance year, RMA established the nonirrigated corn yield
                                for Tillman County at 72 bushels per acre8 and the planted acreage
                                went from 500 acres in 1997 to 136,000 acres in 1999. As a result of
                                the increase in planted corn acres and high crop insurance losses,
                                RMA reevaluated the established yield for the 2000 reinsurance year
                                and on September 20, 1999, decreased the nonirrigated corn yield
                                from 72 to a more appropriate 43 bushels per acre. Even though
                                RMA was aware of the excessive corn yield before CDP sign-up,

4
    Our Audit Report No. 50801-3-KC, dated September 2000.
5
    In Texas, the watermelon acreage went from 7,300 to about 53,000 acres and in Florida from 5,600 to about 16,000 acres.
6
    We are performing an audit of the1999 watermelon claims in Texas (Audit No. 05601-7-Te, Watermelons in South Texas).
7
    $80,000 (payment limitation) times 35 percent (advance payment rate) times two producers.
8
    72 bushels per acre was also the irrigated yield established for corn in Tillman County, Oklahoma.




USDA/OIG-A/03099-42-KC                                                                                                        Page 5
                                 RMA did not inform FSA that excessive indemnities were paid. In
                                 1999, RMA paid $12.7 million in indemnities to about 663 producers
                                 and 649 of the producers applied for about $6.6 million in 1999 CDP
                                 benefits. We identified one producer that received a crop insurance
                                 indemnity of $155,942 for his corn loss and applied for CDP benefits
                                 of $81,357.

                      We also identified one instance where FSA CO personnel recognized a
                      problem with RMA indemnities paid on flooded land. FSA CO personnel in
                      Marion County, Iowa, identified a condition where producers applied for CDP
                      benefits based on crop insurance prevented planting indemnities for
                      farmland flooded by contained water9 in the Red Rock Reservoir area. CO
                      personnel withheld CDP payments and referred the questionable
                      indemnities to RMA compliance to determine the propriety of the
                      indemnities. RMA reviewed the indemnities and identified 25 prevented
                      planting claims totaling $187,124 that may have resulted from contained
                      water. On March 2, 2000, RMA advised reinsured companies that
                      prevented planting provisions might not cover some of the producers’ losses
                      because the flooding was from contained water resulting from a flood control
                      project that raised the normal pool level. The memo also stated that
                      contained water might be a factor at other dams and reservoirs.10 We
                      believe that RMA needs to identify these areas, instruct reinsured
                      companies to collect excessive indemnities, and forward corrected program
                      data to FSA to correct CDP payments. We concur with the action taken by
                      the Marion CO to prevent improper CDP payments. As of October 18, 2000,
                      the CO had not issued CDP payments based on the questionable
                      indemnities.

                      In their May 4, 2000, response to our Management Alert (03099-42-KC(2)),
                      FSA officials agreed to grant authority to FSA county committees (COC) to
                      change download data any time RMA provided written notification to FSA
                      indicating excessive indemnities had been paid because of erroneous crop
                      insurance data. Upon notification of inflated indemnities from RMA, COC’s
                      will review the application and adjust program payments accordingly11. FSA
                      stated that they were unaware, at the time that 1999 CDP payments were
                      issued,12 of the excessive RMA yields indicated in the Management Alert. In
                      addition, RMA concurred that they should identify and catalog instances
                      where program design or errors resulted in the potential for excessive
                      indemnities for the 1999 crop year to ensure that problems are monitored
                      and corrected for the future by June 1, 2000. However, on July 17, 2000,

9
     Contained water is water that is held by a reservoir, dam, or other structure.
10
     RMA Bulletin No.: MGR-00-008, dated March 2, 2000.
11
   For the 2000 CDP, FSA authorized COC’s to adjust RMA data upon notification from RMA of known program deficiencies (FSA
Handbook 3-DAP par. 62A).
12
   FSA Notice DAP-74, dated April 4, 2000, provided instructions for issuing CDP final payments.




USDA/OIG-A/03099-42-KC                                                                                           Page 6
          RMA stated that, due to workloads and other priorities, they had not
          implemented procedures to identify and catalog excessive indemnities
          resulting from program irregularities.

          Even though excessive indemnities were identified by RMA before the final
          CDP payments were issued and the conditions were reported to the
          agencies in a prior audit, corrective actions that were agreed-to were not
          implemented to ensure that program payments were adjusted to reflect the
          actual losses incurred by the producers. FSA and RMA need to work
          together to implement procedures to timely remedy the problem.

                                       To the FSA and RMA Administrators:
  RECOMMENDATION NO. 1
                                        Implement procedures to identify and timely
                                        report to FSA instances where RMA program
          design flaws or errors resulted in excessive indemnities.

          FSA and RMA Responses

          In their June 13, 2001, written reply to our draft audit report (see exhibit
          C), FSA stated that procedures for State and county committee actions
          would be implemented when RMA procedures are in place.

          RMA did not provide official written comments to the draft audit report.

          OIG Position

          Since May of 1999, FSA and RMA officials have agreed to implement
          corrective action that would identify and report overstated indemnities so that
          disaster payments could be adjusted accordingly. However, corrective
          action still has not been taken by the agencies and improper program
          payments continue to be made.

          To reach management decision, we need documentation showing that RMA
          has effectively implemented procedures to identify and report program
          problems that could adversely impact other programs that use RMA data.
          We also need to be advised that FSA has implemented appropriate
          procedures for State and county offices to process identified overstated
          indemnities.

                                       To the FSA Administrator:
  RECOMMENDATION NO. 2
                                     Instruct FSA COs to collect excessive CDP
                                     payments, including those for 1999 watermelon
          and nonirrigated corn, based on the excessive indemnities resulting from
          crop insurance program design flaws or errors.



USDA/OIG-A/03099-42-KC                                                           Page 7
          FSA Response

          In their June 13, 2001, written reply to our draft audit report (see exhibit
          C), FSA stated that the 1999 CDP payments were issued to producers
          based on crop insurance indemnity information supplied from RMA. In the
          absence of a determination by RMA that the producers were not entitled to
          the indemnities as issued, FSA does not have authority to initiate any
          recovery of 1999 CDP payments.

          OIG Position

          FSA needs to proactively coordinate with RMA to identify producers that
          received excessive watermelon and nonirrigated corn indemnities and
          recover the excessive CDP payments. These indemnities were based, in
          part, on a RMA program design flaw or error. We believe that regulations
          provide for the recalculation of the payment when erroneous information
          or miscalculations result in an overpayment.

          To reach management decision, we need documentation showing each
          overpayment and that a bill for collection has been sent and the amount
          entered as a receivable in the agency’s accounting records, or evidence
          that the overpayment has been collected.

                                       To the RMA Administrator:
  RECOMMENDATION NO. 3
                                       Identify areas where contained water may have
                                       caused prevented plantings and determine if
          producers, including those in the Red Rock Reservoir area in Iowa, received
          improper prevented planting indemnities. If so, collect any improper
          indemnities and report the corrected indemnities to FSA.

          RMA Response

          RMA did not provide an official written reply to the draft audit report.

          OIG Position

          To reach a management decision, we need documentation showing the
          results of RMA’s review of prevented planting indemnities in the Red Rock
          Reservoir area and other areas where contained water resulted in
          improper prevented planting indemnities. We also need documentation
          for each overpayment showing that a bill for collection has been sent to
          the reinsured company and the amount has been entered as a receivable
          in the agency’s accounting records, or evidence that the overpayment has




USDA/OIG-A/03099-42-KC                                                           Page 8
             been collected. In addition, we need documentation showing that the
             corrected indemnity amounts were sent to FSA.
                                         Producers continue to receive FSA program
          FINDING NO. 2                  payments and RMA indemnities based on
                                         inaccurate producer reports of farm yields and
     INTERAGENCY PROCEDURES              acreages identified by FSA and RMA
     WERE NEEDED TO EXCHANGE             compliance reviews. FSA and RMA did not
        CORRECTED PROGRAM                implement     interagency    procedures      to
             RECORDS                     exchange    corrections  made     to  program
                                         records when noncompliance or other
             program errors were identified and corrected. As a result, FSA was not
             aware of about $1 million13 of improper 1999 CDP and 1998 CLDAP
             payments. In addition, RMA was not always provided with current
             producer information to help ensure the propriety of indemnities and
             maintain the integrity of RMA databases.

                     We obtained and reviewed RMA’s compliance reports14 dated May 4, 2000,
                     and November 22, 2000, and found that, for 1999 and 1998, RMA
                     compliance recommended the collection of about $5,301,493 from 137
                     producers. For the 1998 CLDAP, we identified 10615 producers that would
                     have been deemed eligible to receive payments totaling $808,38016 based
                     on erroneous 1998 indemnities. We randomly selected three of these
                     producers and confirmed that they had received about $86,000 in
                     1998 CLDAP payments for their insured losses based, in part, on improper
                     indemnities of about $135,000.        As of November 22, 2000, RMA
                     recommended collection of $315,010 in overpaid 1999 indemnities from
                     26 producers.17 These 26 producers were eligible for 1999 CDP payments
                     totaling about $142,51118 based on erroneous indemnities. We contacted
                     FSA personnel in four applicable county offices and were advised that they
                     were not aware of the improper indemnities paid to producers and had not
                     initiated collection of overpayments.

                     In addition to RMA-corrected program records, FSA generally corrects
                     program records when errors are identified during compliance spot-checks
                     and OIG reviews. However, FSA does not report all changes to RMA for
                     their use in correcting crop insurance records.         In Audit Report

13
     See Exhibit A, Summary of Monetary Results ($808,380 in 1998 plus $142,511 for 1999 equals about $1 million).
14
   Compliance reports from RMA’s compliance office tracking system (COTS) for part of the 1998 reinsurance year and the
compliance tracking system (CTS) for the remainder of 1998 and the 1999 reinsurance years.
15
   In total, there were 111 producers determine to have received excessive indemnities in 1998; however, five of the reduced
indemnities would not have impacted the 1998 CLDAP payments.
16
   $1,464,854 (net of underpayments and adjusted for payment limitations) times 65 percent (the insured payment rate) times 84.9
percent (the CLDAP National payment factor).
17
   1999 compliance reviews completed as of November 22, 2000.
18
   $315,010 (adjusted for payment limitations) times 65 percent (the insured payment rate) times 69.6 percent (the CDP National
payment factor).




USDA/OIG-A/03099-42-KC                                                                                                Page 9
                    No. 03601-17-KC, 1998 Crop Loan Deficiency Payment Activities, we
                    reported that 17 of 336 producers reviewed had incorrect crop production

                    and/or share data that was different from other FSA or crop insurance
                    records. When FSA corrected that information, it should have been shared
                    with RMA to determine if the corrected data impacted crop insurance
                    program records. FSA program procedures provide for the correction of
                    certain RMA data downloaded to FSA for disaster programs.19 FSA
                    personnel stated that they did not have a process in place to report to RMA
                    all changes made to producer records.

                    However, recent legislation requires improvement in the area of data sharing
                    and reconciliation of agency records. The Agricultural Risk Protection Act of
                    200020 provides, in part, that selected records submitted shall be available to
                    agencies for use in carrying out agricultural programs. It also provides for
                    the Federal Crop Insurance Corporation (FCIC) and FSA to reconcile
                    relevant information received by the FCIC or FSA from a producer who
                    obtains crop insurance. Beginning with the 2001 crop year, it also mandated
                    that FCIC and FSA reconcile producer-derived information on an annual
                    basis in order to identify and address any discrepancies.

                    We found that FSA and RMA did not have procedures in place to exchange
                    corrected program information when errors or irregularities were identified so
                    that all program records could be corrected. Implementation of such
                    procedures would be consistent with the data sharing provisions of the
                    Agricultural Risk Protection Act of 2000.

                                                        To the FSA and RMA Administrators:
     RECOMMENDATION NO. 4
                                                Develop      and      implement     interagency
                                                procedures to exchange program information
                    changes resulting from agency compliance reviews, OIG audits, and other
                    program reviews for use in determining the propriety of program payments.

                    FSA and RMA Responses

                    In their June 13, 2001, response to the draft audit report (see exhibit C),
                    FSA stated that the Agricultural Risk Protection Act of 2000 (ARPA)
                    mandates reconciliation beginning in 2001. However, the legislation does
                    not require such procedures and reconciliation for the 1998 and 1999
                    disaster assistance programs.      The establishment of reconciliation
                    procedures with RMA is currently an ongoing project.

19
     FSA Handbook 2-DAP Amend.1 paragraphs 26B and 30, dated December 3, 1999.
20
     PL 106-224, dated June 20, 2000.




USDA/OIG-A/03099-42-KC                                                                    Page 10
          RMA did not provide an official written reply to the draft audit report.


          OIG Position

          The areas to be reconciled for the 2001 crop year are limited to the producer
          identification, producer share, acreage, and production. We do not believe
          that this would identify changes resulting from agency compliance reviews,
          OIG audits, and other program reviews that would be performed well after
          the data reconciliation. We believe that, in addition to the data reconciliation,
          FSA and RMA need to coordinate to develop and implement interagency
          procedures to exchange program information changes resulting from such
          reviews.

          To reach management decision, we need to be advised that interagency
          procedures will be developed to exchange changes resulting from
          compliance and other reviews and the related timeframes for
          implementation.


                                        To the FSA Administrator:
  RECOMMENDATION NO. 5
                                         Recover improper 1998 and 1999 disaster
                                         payments that were based on improper
          indemnities identified after the payments were issued.

          FSA Response

          In its June 13, 2001, written reply to our draft audit report (see exhibit C),
          FSA stated that RMA has not notified FSA of the improper indemnities for
          1998 and 1999 identified by compliance reviews.

          OIG Position

          FSA should proactively coordinate with RMA to obtain listings of improper
          indemnities identified by RMA compliance for the 1998, 1999, and 2000
          reinsurance years and collect any over paid disaster assistance program
          payments.

          To reach a management decision, we need documentation for each
          overpayment showing that a bill for collection has been sent and the
          amount has been entered as a receivable in the agency’s accounting
          records, or evidence that the overpayment has been collected.




USDA/OIG-A/03099-42-KC                                                           Page 11
                                          FSA did not always treat producers in the
            FINDING NO. 3                 same manner and assess liquidated damages
                                          for noncompliance with the 1998 CLDAP crop
         LIQUIDATED DAMAGES               insurance linkage requirements.        This
         PROVISIONS WERE NOT              occurred because FSA CO personnel did not
          PROPERLY APPLIED                follow program procedures and allowed
                                          exceptions and waivers of the liquidated
            damages provisions or did not make compliance determinations. FSA did not
            determine if 2,645 producers met the crop insurance linkage requirements
            and did not ensure that 10,404 of the 20,125 producers were properly
            assessed liquidated damages.

               Program procedures provide that as a condition of receiving 1998 CLDAP
               payments, producers who did not insure 1998 crops were required to
               purchase crop insurance for all crops of economic significance in 1999 and
               2000. Producers who did not comply with the crop insurance provisions were
               to be assessed liquidated damages.         No authority was provided for
               meritorious relief and producers who failed to purchase crop insurance for
               1999 or 2000 were to be assessed liquidated damages as well. There were
               to be no exceptions or waivers.21

               FSA Notice DAP-65, dated February 3, 2000, provided for FSA COs to report
               noncompliance with the CLDAP crop insurance linkage requirements. FSA
               National office personnel reviewed the reports and determined that COs had
               improperly waived or not established receivables for liquidated damages
               when: (1) producers appealed the noncompliance determination,
               (2) producers did not report 1999 crops, or (3) misaction/misinformation
               determinations were made even though procedures stated there would be no
               exceptions or waivers. In addition, FSA National office personnel ascertained
               that noncompliance determinations were not made for 2,645 producers
               because RMA did not have automated crop insurance information for
               2,533 producers in Puerto Rico and FSA personnel were not sure if the
               producers needed to purchase crop insurance. For the remaining 112
               producers, no specific reason was provided by FSA for not completing the
               determinations.    The following table presents the results of the CO
               determinations for producer compliance with the crop insurance linkage
               requirements:
                     Producers With Receivables Established                                              6,414
                     Producers No Longer Farming                                                         2,627
                     Producers With No Insurable Crops                                                   3,396
                     Producers With Crops Not Of Economic Significance                                     662
                     Other Producers*                                                                    4,381
                                                                        Sub Total                       17,480
                     Producers Where No Determination Had Been Made By CO                                2,645
                                                                            Total                       20,125


21
     FSA Handbook 1-DAP paragraph 1001 A, dated February 9, 1999, and paragraphs 1001 E and G, dated June 22, 1999.




USDA/OIG-A/03099-42-KC                                                                                           Page 12
                        * Required CO to provide explanation.

        On August 21, 2000, the FSA National office issued notice DAP-82 to correct
        improperly waived liquidated damages and provided additional guidance to
        COs on collecting them. The notice provided for the COs to immediately
        establish a receivable for any producer that had not met the crop insurance
        linkage requirement.

        To determine if the COs took immediate corrective action, we contacted 15
        COs in 9 States in September 2000. Our review showed that three of the
        COs contacted still had not properly applied liquidated damage provisions for
        noncompliance with the crop insurance linkage requirements:

           •   In Yuma County, Arizona, a producer received a $73,368 CLDAP
               payment on a noninsurable crop. The producer did not purchase crop
               insurance for his 1999 insurable crops as required by program
               procedures. The CO did not apply liquidated damages because they
               incorrectly determined that the producer was not required to purchase
               crop insurance since the CLDAP payment was for a loss on a
               noninsurable crop.

           •   In Fayette County, Kentucky, the FSA CO determined that
               29 producers were in compliance with the linkage requirements
               because the producers did not apply for 1999 CDP benefits. Program
               procedures provide that as a condition of receiving CLDAP payments,
               producers must purchase crop insurance for all crops of economic
               significance in 1999 and 2000. Producers not complying were to be
               assessed liquidated damages and no exceptions or waivers were to be
               granted. The County Executive Director stated that he understood that
               liquidated damages were applicable only if the producers applied for
               1999 CDP benefits.

           •   In Barren County, Kentucky, four producers received 1998 CLDAP
               payments but did not certify to FSA that they planted a crop in 1999.
               Therefore, the CO did not assess liquidated damages because they
               did not know if the producers were farming in 1999. CO personnel
               stated that they did not know how to handle producers who did not
               certify their 1999 crops.

        We concluded that although FSA provided additional guidance in August
        2000, the COs still had not confirmed that 10,404 producers should be
        assessed liquidated damages when they were initially identified as no longer
        farming, had no insurable crops, or were not assessed liquidated damages for
        “other” reasons by the COs.          In addition, FSA did not make any
        determinations for 2,645 producers. FSA State offices need to provide
        additional guidance and supervision to COs to ensure that liquidated



USDA/OIG-A/03099-42-KC                                                      Page 13
        damages are properly applied.

                                        To the FSA Administrator:
  RECOMMENDATION NO. 6
                                         Instruct FSA State offices to follow up on CO
                                         application of liquidated damage provisions to
           ensure these provisions are properly applied and liquidated damages or
           program payments are recovered as necessary, and provide progress
           reports to the National office.

           FSA Response

           In their June 13, 2001, reply to the draft audit report, FSA stated that
           several program notices had been issued on this subject. The notices
           outlined the corrective action required for both 1998 CLDAP and 1999
           CDP.

           OIG Position

           We recognize FSA’s effort to provide guidance to COs through the
           issuance of program notices. However, we believe that due to the number
           of improper determinations made by COs as cited in the finding, FSA
           should require additional SO oversight. This could be accomplished
           through District Director reviews, county office reviews, or during disaster
           program compliance reviews.

           To reach management decision, we need to be advised of corrective
           action planned or implemented to improve the application of the liquidated
           damage provisions for non-compliance with crop insurance linkage
           requirements.




USDA/OIG-A/03099-42-KC                                                        Page 14
EXHIBIT A – SUMMARY OF MONETARY RESULTS

    FINDING NO.                 DESCRIPTION                  AMOUNT         CATEGORY
         2                    Unsupported CDP                $950,891*   Unsupported Costs,
                              and CLDAP                                  Recovery
                              payments                                   Recommended
*$808,380 for the 1998 CLDAP and $142,511 for the 1999 CDP




USDA/OIG-A/03099-42-KC                                                             Page 15
EXHIBIT B – COUNTY OFFICES CONTACTED FOR LIQUIDATED
DAMAGES REVIEW
        STATE         COUNTY        STATE       COUNTY
                                    Louisiana   Rapids
        Arizona       Pima
                      Yuma          Georgia     Decatur

        California    Kern          Texas       McLennan
                      San Joaquin               Hill

        Missouri      Dunklin       Kentucky    Fayette
                                                Mercer
        Arkansas      Crittenden                Pulaski
                                                Henry
        Mississippi   Carrol




USDA/OIG-A/03099-42-KC                                     Page 16
EXHIBIT C – FSA’S RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/03099-42-KC                           Page 17
USDA/OIG-A/03099-42-KC   Page 18
USDA/OIG-A/03099-42-KC   Page 19
USDA/OIG-A/03099-42-KC   Page 20
USDA/OIG-A/03099-42-KC   Page 21
USDA/OIG-A/03099-42-KC   Page 22
USDA/OIG-A/03099-42-KC   Page 23
USDA/OIG-A/03099-42-KC   Page 24
                           ABBREVIATIONS


CDP      Crop Disaster Program

CLDAP    Crop Loss Disaster Assistance Program

CO       County Office

COC      County Committee

DAP      Disaster Assistance Programs

FCIC     Federal Crop Insurance Corporation

FSA      Farm Service Agency

OIG      Office of Inspector General

RMA      Risk Management Agency

SO       State Office




USDA/OIG-A/03099-42-KC                           Page 25
